           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
    BY THE NEBRASKA DISABILITY
     DETERMINATION SERVICES

       June 2008   A-07-07-17170




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 19, 2008                                                             Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Administrative Costs Claimed by the Nebraska Disability Determination Services
           (A-07-07-17170)


           OBJECTIVE

           Our objectives were to evaluate the Nebraska Disability Determination Services’
           (NE-DDS) internal controls over the accounting and reporting of administrative costs,
           determine whether costs claimed by the NE-DDS were allowable and properly allocated
           and funds were properly drawn, and assess limited areas of the general security control
           environment. Our audit included the administrative costs claimed by the NE-DDS
           during Federal Fiscal Years (FY) 2005 and 2006.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for
           the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State and other responsible jurisdictions. Such determinations
           are required to be performed in accordance with Federal law and underlying
           regulations. 1 In carrying out its obligation, each DDS is responsible for determining
           claimants’ disabilities and ensuring that adequate evidence is available to support its
           determinations.




           1
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Michael W. Grochowski

To assist in making proper disability determinations, each DDS is authorized to
purchase medical examinations, x-rays, and laboratory tests on a consultative basis to
supplement evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
Federal regulations 2 and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with the Office
of Management and Budget’s (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the FY, each DDS is required
to submit a State Agency Report of Obligations for SSA Disability Programs
(SSA-4513) to account for program disbursements and unliquidated obligations. 4 The
SSA-4513 reports expenditures and unliquidated obligations for personnel service
                                                                        5
costs, medical costs, indirect costs, and all other nonpersonnel costs.

The Nebraska Department of Education is the NE-DDS’ parent agency. The NE-DDS
is located in Lincoln, Nebraska.

RESULTS OF REVIEW
Other than the areas discussed in this report, the NE-DDS had effective controls over
the accounting and reporting of administrative costs. With the exception of paying
consultative examination (CE) providers for missed CE appointments without SSA
approval, the costs claimed by the NE-DDS during our audit period were allowable,
properly allocated, and funds were properly drawn. We found that the NE-DDS needed
to improve controls over its CE provider sanction process and inventory controls.
Regarding general security control, NE-DDS did not comply with SSA policies for
after-hours cleaning services, its security plan was incomplete, and its disaster recovery
plan (DRP) had not been tested.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503 (1990).
4
 SSA, POMS, DI 39506.201 and 202. POMS, DI 39506.200 B.4 provides, in part, that “Unliquidated
obligations represent obligations for which payment has not yet been made. Unpaid obligations are
considered unliquidated whether or not the goods or services have been received.
5
    SSA, POMS, DI 39506.201 and 202.
Page 3 - Michael W. Grochowski

CE PROVIDERS PAID FOR MISSED APPOINTMENTS

The NE-DDS paid CE providers a fee when claimants missed their CE appointments.
Specifically, the NE-DDS paid the CE provider up to 50 percent of the fee for the
missed CE. As a result, SSA reimbursed the NE-DDS $229,519 for payments to CE
providers for missed CE appointments during FYs 2005 and 2006. The payments
represented more than 7 percent of total CE expenses during the same timeframe.
SSA had not approved the payments for missed CE appointments, as required.

In response to a prior audit, SSA adopted a no-pay policy for missed CE
               6
appointments. In April 2000, SSA clarified its no-pay policy and stated that, on an
individual case basis, the DDS may request an exemption. 7,8 To obtain an exemption,
the DDS is instructed to work with its SSA regional office (RO) to reach agreement on
payments to CE providers for missed appointments. After an agreement is reached,
the RO would then submit the request, along with supporting documentation, to the
Office of Disability Determinations (ODD) for exemption consideration. However, we
found that the NE-DDS did not work with the Kansas City RO on an exemption. Rather,
it implemented a payment policy for missed CE appointments without requesting SSA’s
approval.

NE-DDS’ administrator stated that he believes CE providers should be compensated for
the loss of revenue resulting from missed CE appointments. We recommend SSA
instruct the NE-DDS to refund $229,519 for missed CE appointments unless it can
provide acceptable evidence that paying for these missed CE appointments is
appropriate. We also recommend that SSA instruct the NE-DDS to immediately stop
payments to providers for missed CE appointments until an exemption is requested and
approved.

SANCTION LISTING

The NE-DDS did not review the Health and Human Services, Office of Inspector
General, (HHS/OIG) List of Excluded Individuals/Entities to ensure CE providers it
intended to utilize were not sanctioned from participation in any Federal or federally
assisted program. SSA policy indicates that a qualified medical source must not be




6
 Department of Health and Human Services, Office of Inspector General, Payments Under the Disability
Determination Program for Medical Appointments Made by Claimants of Disability Insurance and
Supplemental Security Income Benefits (A-01-87-02004), December 1987.
7
    SSA, Office of Disability, DDS Administrators' Letter No. 536, April 25, 2000.
8
    SSA, POMS, DI 39545.275.
Page 4 - Michael W. Grochowski

sanctioned from participation in Federal programs. 9 Underlying SSA procedures
require that, before using the services of any CE provider, DDSs must review the Listing
of Excluded Individuals/Entities for each CE provider at least annually. 10

The NE-DDS is at-risk of contracting with CE providers whose services have been
sanctioned by other Federal agencies if it does not review the HHS/OIG sanction listing.
The NE-DDS stated it was unaware of the requirement to review the HHS/OIG sanction
listing. Since learning of this requirement, NE-DDS stated it has reviewed the HHS/OIG
sanction listing and incorporated this procedure in its CE provider review process. We
recommend SSA ensure the NE-DDS continues to review the HHS/OIG List of
Excluded Individuals/Entities as part of its CE provider background check process.

INVENTORY CONTROL

The NE-DDS did not maintain accurate and complete inventory records of computer
equipment.

      •   We could not locate two servers and two laptop computers that were listed on
          the official inventory records. After our on-site inventory review, NE-DDS
          management reported that one of the laptops was located and the other laptop
          had been surplused. We do not know whether the servers contained personally
          identifiable information (PII). However, the NE-DDS stated the PII would have
          been erased since the equipment was out of service. 11

      •   The NE-DDS’ official inventory records did not include desktop and laptop
          computers that SSA purchased and shipped directly to the NE-DDS.

The NE-DDS did not record this computer equipment stating it believed SSA was
responsible for maintaining the inventory of computer equipment SSA purchased for the
NE-DDS. Furthermore, the NE-DDS stated that, although SSA policy requires the
inventory of equipment, this policy defines equipment as having a minimum per unit
                           12
acquisition cost of $5,000. The NE-DDS believes it does not need to inventory
computer equipment purchased with SSA-applied funds.

We do not agree with the NE-DDS’ assertions that they are exempt from documenting
SSA supplied computer into their inventory system. Although SSA policy defines
equipment using a minimum per unit acquisition cost, this same policy also makes a
clear distinction that computer equipment is to be considered separately from other

9
    SSA, POMS, DI 39569.300 A.
10
     SSA, POMS, DI 39569.300 B.1 and 2.
11
  We notified the Kansas City RO of the missing computer equipment. Within 24 hours of the notification,
SSA’s RO informed the NE-DDS Administrator to send a report of suspected loss of PII to the National
Computer Service Center, and he did so.
12
     SSA, POMS, DI 39530.001.B.
Page 5 - Michael W. Grochowski

equipment. 13 Additional SSA policy requires an appropriate inventory and control
mechanism to account for all property used for disability program purposes. 14 It is
noteworthy that Nebraska Department of Education’s inventory policy, issued in
March 2007, specifically requires that the NE-DDS record and account for computer
equipment regardless of per unit acquisition cost, and its tracking system must also
identify the current employee assigned accountability for specific computers. 15
Therefore, according to SSA and State policy, a minimum per unit acquisition cost does
not apply regarding the inventory of computer equipment.

The NE-DDS also states that it does not own the computer equipment purchased for it
by SSA. We do not agree with the NE-DDS’ assertions regarding the ownership of
SSA-supplied computer equipment. SSA’s inventory policy clearly states the title to
equipment rests with the State, and the State is responsible for maintenance and
inventory of all equipment whether purchased through SSA or the State. 16

Not maintaining adequate inventory records hinders detection of stolen or misplaced
equipment. By creating an appropriate inventory system for computer equipment, the
NE-DDS will create security controls to protect records created by the State in
                                                                            17
performing the disability determination function, as required by SSA policy. We
recommend SSA instruct the NE-DDS to immediately establish and maintain equipment
inventory in compliance with the policies of SSA and the Nebraska Department of
Education. We also recommend that SSA verify the NE-DDS’ new inventory system
complies with appropriate policies.

ACCESS CONTROLS

The NE-DDS did not comply with SSA policies for cleaning services, which require that
all offices implement a clean-desk policy or daytime cleaning, 18 and that non-Agency
employees, such as cleaning personnel, must not have access to claimant data, and
                                                         19
any computer equipment used for data input or storage. NE-DDS’ cleaning services
were provided during nonwork hours, and the NE-DDS did not practice a clean-desk




13
     SSA, POMS, DI 39530.001 A. 4.
14
     SSA, POMS, DI 39563.200.
15
     Nebraska Department of Education Administrative Memorandum #303, March 2007.
16
     SSA, POMS, DI 39530.001 A. 2. and SSA, POMS, DI 39530.020 A.1.
17
     SSA, POMS, DI 39563.200.
18
     SSA, POMS, DI 39566.010 B.2.a. and B.6.e.
19
     SSA, POMS, DI 39566.030 B.
Page 6 - Michael W. Grochowski

policy. Therefore, cleaning personnel could gain unauthorized access to sensitive
information and computer equipment. A lack of access controls increases the risk of
unauthorized access and loss of sensitive information and equipment.

The NE-DDS stated that cleaning during regular working hours is disruptive and
diminishes the quality of service to the public since it is required to assist the public by
telephone. We recommend SSA instruct the NE-DDS to either implement cleaning
services during work hours or adhere to SSA’s clean desk policy and other limitations
on access to claimant data.

INCOMPLETE SECURITY PLAN

The NE-DDS’ security plan did not adhere to SSA’s policy requiring a security plan
                                                                          20
consisting of eight parts, with each part containing specific information. We found
that the NE-DDS security plan was missing three of the eight required parts: (1) the
DDS Systems Interconnection Access Security Plan, (2) the Violations Reports and
Resolution Plan, and (3) the Risk Assessment.

Furthermore, essential information was missing in the other five parts of the security
plan.

1. The Physical DDS Security Description/Profile was missing a line of succession or
   authority in the event of a disaster.
2. The Systems Security Awareness and Training Plan was missing information on
   how newly hired employees and contractors are trained.
3. The Tri-Annual Systems Review/Recertification Plan was missing the tri-annual
   recertification process, the DDS policy on platform security, and the instructions for
   the comprehensive integrity review process.
4. The Continuity of Operations Plan was missing a description of SSA and NE-DDS
   responsibilities and a description of workload and workflow of the NE-DDS.
5. The DRP did not quantify what local resources are needed to operate the NE-DDS
   in the event of a disaster.

Because there was no complete security plan, there was a risk that critical business
processes were not protected or would not recover timely in the event of a disaster. A
delay in creating a complete security plan could result in a longer recovery period
following a catastrophic event. NE-DDS personnel stated that conversion to electronic
folders was given priority over the security plan, and, since the conversion is complete,
the NE-DDS plans to create a new security plan in accordance with SSA’s policy. We
recommend SSA assist the NE-DDS in the timely creation of a security plan in
accordance with its policy.



20
     SSA, POMS, DI 39566.120 C.
Page 7 - Michael W. Grochowski

DRP NOT TESTED
                                                                21
The NE-DDS’ DRP was not tested as set forth in SSA policy. The DRP documents
DDS data and personnel information involved in restoring system operations that are
vital to disaster recovery. As a result of not testing the DRP, there was a risk that
critical business processes were not protected or would not recover timely in the event
of a disaster. NE-DDS’ delay in testing the DRP could result in a longer recovery period
following a catastrophic event. We recommend SSA work with the NE-DDS to ensure
the timely testing of the DRP.

CONCLUSION AND RECOMMENDATIONS

Other than the areas discussed in this report, the NE-DDS had effective controls over
the accounting and reporting of administrative costs. With the exception of paying CE
providers for missed CE appointments without SSA approval, the costs claimed by the
NE-DDS during our audit period were allowable, properly allocated, and funds were
properly drawn. We found that the NE-DDS needed to improve controls over its CE
sanctioned provider process and inventory controls. Regarding general security control,
NE-DDS did not comply with SSA policies for after hours cleaning services, its security
plan was incomplete, and its DRP had not been tested.

We recommend the SSA Regional Commissioner:

     1. Instruct the NE-DDS to refund $229,519 for missed CE appointments unless it
        can provide acceptable evidence that paying for these missed CE appointments
        is appropriate.

     2. Instruct the NE-DDS to immediately stop payments to providers for missed CE
        appointments until an exemption is requested and approved.

     3. Ensure the NE-DDS continues to review the HHS/OIG List of Excluded
        Individuals/Entities as part of its consultative examiner background check
        process.

     4. Instruct the NE-DDS to immediately establish and maintain proper equipment
        inventory in compliance with policies of SSA and the Nebraska Department of
        Education.

     5. Verify the NE-DDS’ new inventory system complies with appropriate policies.



21
  SSA, POMS, DI 39566.120 C.7.b. In accordance with this SSA policy, the testing will be performed with
headquarters hardware in the National Computer Center’s Disaster Test Facility. The policy provides that
the Office of Telecommunications and Systems Operations, an SSA component, performs this in
conjunction with DDS systems staff and vendors who provide disaster recovery resources, and they will
schedule the DDSs for backup and recovery testing.
Page 8 - Michael W. Grochowski

   6. Instruct the NE-DDS to either implement cleaning services during work hours or
      adhere to SSA’s clean-desk policy during nonwork hours and other limitations on
      access to claimant data.

   7. Assist the NE-DDS in the timely creation of a security plan in accordance with its
      policy.

   8. Work with the NE-DDS to ensure the timely testing of NE-DDS’ DRP.

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with all of our recommendations. See
Appendix C for the full text of SSA’s comments.

NEBRASKA DISABILITY DETERMINATION SERVICES’ COMMENTS

In commenting on our draft report the NE-DDS agreed with three of the eight
recommendations in our audit report. See Appendix D for the full text of the NE-DDS’
comments.

The NE-DDS disagreed with Recommendations 1 and 2 stating in part that paying for
missed CE appointments is a good business practice; consistent with its parent agency
practice; consistent with standard business practice in the community; and contributes
to making accurate determinations. The NE-DDS also stated that SSA’s attempt to
collect reimbursement of nearly a quarter of a million dollars constitutes a threat to the
continuation of the state-federal relationship in Nebraska.

The NE-DDS also disagreed in part with Recommendations 4 and 5 citing a different
interpretation of the SSA inventory policies and procedures than what we outlined in our
report. However, the NE-DDS commented that it will agree to conform to SSA
inventory requirements once the requirements are stated.

The NE-DDS disagreed with Recommendation 6 stating that SSA policy gives the NE-
DDS discretion as to whether it chooses to implement cleaning services during work
hours and adhere to SSA’s clean desk policy.

OIG RESPONSE

The SSA Regional Office has already taken actions to implement Recommendations
1 and 2. Following the issuance of our draft report, SSA worked with the NE-DDS to
develop a request for exemption of payment for missed appointments, allowing for
reduced reimbursement instead of paying the CE provider up to 50 percent of the fee
for the missed CE during our audit period. This exemption has been approved by the
Office of Disability Determinations. The NE-DDS plans to implement this new
Page 9 - Michael W. Grochowski

procedure on June 2, 2008. Since SSA reached agreement on the exemption, it does
not plan to request a refund of the funds paid for missed appointments. Therefore,
SSA has taken appropriate actions to address these recommendations and the
concerns stated in the NE-DDS’ comments are no longer applicable.

We remain committed to Recommendations 4 and 5 which require the NE-DDS to
establish and maintain proper equipment inventory in compliance with policies of SSA
and the Nebraska Department of Education and instruct SSA to verify the NE-DDS’ new
inventory system complies with appropriate policies. However, the NE-DDS’ comments
to our draft report indicates that it may not fully understand SSA requirements for the
inventory process. Therefore, SSA should discuss the inventory requirements with the
NE-DDS as part of its process for taking corrective actions on our recommendations.

We also remain committed to our recommendation that the NE-DDS either implement
cleaning services during work hours or adhere to SSA’s clean-desk policy.
Implementation of this recommendation is necessary for the protection of disability
claimants’ PII that is not protected by computer PINS and passwords. The minimal
effort required on the part of the NE-DDS to implement a clean-desk policy is far
outweighed by the protection it would provide disability claimants.

OTHER MATTER

Personally Identifiable Information

Disability claimants of the NE-DDS had PII routinely disclosed to vendors. The NE-
DDS processes over 18,000 disability determinations each FY. During the disability
determination process, the NE-DDS purchases services that include medical evidence
(CE and medical evidence of record) and claimant travel. Our review of medical and
applicant travel invoices revealed that these documents contained PII including name,
address, date of birth, Social Security number, and telephone number. Although we
have no reason to believe this information has been abused, this practice could
potentially result in abuse of claimant’s PII.

Federal guidance dictates that agencies should reduce their current holdings of all PII
to the minimum necessary for the proper performance of a documented agency
function. 22 Agencies must also review their use of Social Security numbers in agency
systems and programs to identify instances in which collection or use of the Social
Security number is superfluous. 23




22
  OMB Memorandum M-07-16, Attachment 1 § B.1.a. This Memorandum (page 2) also indicates a few
simple and cost effective steps to greatly reduce the risks related to a data breach of PII, such as limiting
access to only those individuals who must have such access. Access is defined as the ability or
opportunity to gain knowledge of PII.
23
     OMB Memorandum M-07-16, Attachment 1 § B.2.a.
Page 10 - Michael W. Grochowski

On October 5, 2007, SSA ODD informed ROs that DDS’ should review their processes
to eliminate the use of the Social Security numbers on correspondence where possible.
The NE-DDS informed us that it has begun the process of removing the Social Security
number from documents where it is not absolutely necessary.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Nebraska Disability Determination Services Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act           Social Security Act
ASAP          Automated Standard Application for Payments
CE            Consultative Examination
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
DRP           Disaster Recovery Plan
FY            Fiscal Year
HHS           Health and Human Services
NE-DDS        Nebraska Disability Determination Services
ODD           Office of Disability Determinations
OIG           Office of Inspector General
OMB           Office of Management and Budget
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RO            Regional Office
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                     Appendix B

Scope and Methodology
SCOPE

To achieve our objective, we:

 •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
     Security Administration’s (SSA) Program Operations Manual System and other
     criteria relevant to administrative costs claimed by the Nebraska Disability
     Determination Services (NE-DDS), and the draw down of SSA program
     appropriations.

 •   Interviewed staff at the Nebraska Department of Education and the NE-DDS.

 •   Reviewed State policies and procedures related to personnel, medical services,
     and all other nonpersonnel costs.

 •   Evaluated, tested, and documented internal controls regarding accounting, financial
     reporting, and cash management activities.

 •   Reconciled State accounting records to the administrative costs reported by the
     NE-DDS on the State Agency Report of Obligations for SSA Disability Programs
     (SSA-4513) for Federal Fiscal Years (FY) 2005 through 2006.

 •   Examined specific administrative expenditures (personnel, medical services, and all
     other nonpersonnel costs) incurred and claimed by the NE-DDS for FYs 2005 and
     2006 on the SSA-4513. We used statistical sampling to select expenditures to test
     for support of the medical service and all other nonpersonnel costs as discussed in
     the following methodology section of this appendix.

 •   Examined the indirect costs claimed by NE-DDS for FYs 2005 through 2006.

 •   Compared the amount of SSA funds drawn for support of program operations to
     the expenditures reported on the SSA-4513.

 •   Determined whether selected funds from cancelled warrants were properly returned
     to SSA.

 •   Determined whether unliquidated obligations were properly supported.

 •   Reviewed the NE-DDS’ general security control.




                                           B-1
 •   Reviewed Office of Management and Budget guidance related to safeguarding
     personally identifiable information.

We determined that the data provided by Nebraska Department of Education and
NE-DDS used in our audit were sufficiently reliable to achieve our audit objectives. We
assessed the reliability of the data by reconciling it with the costs claimed on the
SSA-4513. We also conducted detailed audit testing on selected data elements in the
electronic data files.

We performed work at the NE-DDS, and the Kansas City, Missouri, Office of Audit. We
conducted fieldwork from June 2007 through January 2008. The audit was conducted
in accordance with generally accepted government auditing standards.

METHODOLOGY

SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained a data extract of all costs and the associated invoices for FYs
2005 through 2006 for use in statistical sampling. This was obtained from the
accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected 1 pay period, the month of August, in FY 2006 for review. We
then selected a random sample of 50 regular employees for review and testing of the
payroll records. For medical consultant costs, we also selected the month of August, in
FY 2006, for review. We then selected all 19 medical consultants for review and testing
of the payroll records.

Medical Costs

We sampled 100 items (50 items from each of FY 2005 and 2006) using a stratified
random sample of medical costs based on the proportion of medical evidence of record
and consultative examination costs to the total medical costs claimed.




                                          B-2
Indirect Costs

NE-DDS indirect costs are computed by applying a federally approved rate to a cost
base. 1 This methodology was approved by the United States Department of Education,
which is the Federal agency designated to negotiate and approve the indirect cost rate.
On the final SSA-4513s, the NE-DDS claimed indirect costs of $460,944 for FY
2005 and $511,934 for FY 2006. We reviewed the FY 2005 and 2006 indirect cost
calculations to ensure the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 100 items (50 expenditures from FY 2005 and 50 from FY 2006) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




1
  Total direct costs including the remunerations of medical consultants less items of equipment, alterations
and renovations flow-through, food, other medical costs and the portion of each competitive bid sub-award
in excess of $25,000 regardless of the period covered by that sub-award.


                                                    B-3
                  Appendix C

Agency Comments
Sent: Thursday, May 08, 2008 4:36 PM
Subject: Signed Draft Report (A-07-07-17170) - Kansas City Response

To:          Inspector General

From:        Regional Commissioner
             Kansas City Region

Subject:     Administrative Costs Claimed by the Nebraska Disability Determination Services
             (A-07-07-17170) - Response

Thank you for sharing the draft report of the administrative audit for fiscal years 2005 and 2006
conducted at the Nebraska Disability Determination Services (DDS). The preliminary findings
illustrate that overall the Nebraska DDS has effective controls over the accounting and reporting
of administrative costs. The auditors did identify the following recommendations that require
corrective action or improved processes. I agree with the recommendations outlined in the draft
report. We will work with the DDS to correct these findings.

Recommendations:
1. Instruct the Nebraska DDS to refund $229,519 for missed CE appointments unless it can
   provide acceptable evidence that paying for these missed CE appointments is appropriate.
2. Instruct the DDS to immediately stop payments to providers for missed CE appointments
   until an exemption is requested and approved.

      Action Pending: The Regional Office worked with the Nebraska DDS to develop a request
      for exemption of payment for missed appointments, allowing for reduced reimbursement.
      This exemption has been approved by the Office of Disability Determination. The DDS
      plans to implement this new procedure on June 2, 2008, which will allow the DDS enough
      time to inform their consultative examination panelists of the change in their policy. Since
      we have now come to an agreement on this exemption, the Region does not plan to request a
      refund of DDS funds paid for missed appointments.

3. Ensure the DDS continues to review the HHS/OIG List of Excluded Individuals/Entities as
   part of its consultative examiner background check process.

      Action Pending: The DDS is now aware of the requirement to review the HHS/OIG
      sanction listing and will incorporate this into their CE provider review process. The Center
      for Disability Professional Relation's Officer will follow-up with the DDS during
      Professional Relations visits to ensure this is being done on a regular basis.

4. Instruct the DDS to immediately establish and maintain proper equipment inventory in
   compliance with policies of SSA and the Nebraska Department of Education.
5. Verify the DDS’ new inventory system complies with appropriate policies.




                                                 C-1
   Action Pending: The Center for Disability Programs will work with the DDS to see that
   they establish proper equipment inventory and verify the new system complies with
   appropriate policies.

6. Instruct the DDS to either implement cleaning services during work hours or adhere to SSA’s
   clean-desk policy during non-work hours and other limitations on access to claimant data.

   Action Pending: The DDS is evaluating options to comply with SSA policies for cleaning
   services.

7. Assist the DDS in the timely creation of a security plan in accordance with its policy.

8. Work with the DDS to ensure the timely testing of the DDS’ Disaster Recovery Plan.

   Action Pending: The Center for Disability Programs will work with the DDS to develop a
   complete security plan that adheres to SSA's policy requirements. The Office of Disability
   Determination, Division of DDS Systems, will be contacted regarding the possibility of
   testing the Nebraska DDS Disaster Recovery Plan.

OTHER MATTER

Personally Identifiable Information (PII)
Disability claimants of the DDS had PII routinely disclosed to vendors. Review of medical and
applicant travel invoices revealed that these documents contained PII including name, address,
date of birth, Social Security number, and telephone number.

    Action Pending: The DDS is working to remove the Social Security number from all
    documents where it is not absolutely necessary.

We appreciate the auditor's exceptional communication and cooperation with the DDS and
Regional Office during the course of the audit process. We hope to have all matters addressed by
the time the final audit report is received. If you have questions, please contact me at 816-936-
5700. If your staff needs additional assistance or information, they may contact Linda Kerr-
Davis, Disability Program Administrator for Nebraska, at 816-936-5685.

                                             /s/
                                    Michael W. Grochowski




                                               C-2
                                    Appendix D

Nebraska Disability Determination Services
Comments
                   NEBRASKA DEPARTMENT OF EDUCATION
             Disability Determinations Section
         Mailing Address: PO Box 82530 - Lincoln, Nebraska 68501-2530 - Phone (402) 471-2961
                                             FAX # 402-471-3626
           Determinations for Social Security and Supplemental Security Income Disability


                                                         May 14, 2008

Patrick P. O’Carroll, Jr.
Office of Inspector General
Social Security Administration
Baltimore, MD 21235-0001

Dear Mr. O’Carroll:

                                Re:     Audit A-07-07-17170

By letter dated April 14, 2008, your office conveyed a draft Audit Report relative to the
administrative costs claimed by the Nebraska Disability Determinations Services. The
audit covered fiscal years 2005 and 2006. You requested written comments on each of
the recommendations contained in the draft report. This letter serves as the response of
the Nebraska Department of Education.

BACKGROUND

The relevant statutes and regulations create an opportunity for the state and federal
governments to maintain a partnership in the administration of the Social Security
Disability Program. Participation is voluntary for the states. SSA may terminate its
relationship with a state in the presence of performance that persistently falls below
SSA’s established standards.

All states presently participate in the program which is evidence that the states and SSA
feel that there are mutual advantages in doing so. For SSA, the advantages are tangible
and obvious. They most notably include having exclusive access to points of business
presence in every state and to a trained and experienced state workforce whose
compensation is far less than would be the case if the work were performed by federal
employees. Simply and significantly, SSA saves a lot of money by having the disability
determination function performed by the states.

For the states, the benefits are less concrete, and the financial incentive, if any, is small.
SSA does fund all operational expenses. Additionally, SSA reimburses the states for
the administrative overhead (indirect costs) associated with participating in the
program. But since the state does not “keep” any of the funding for operational



                                                  D-1
expenses and since the indirect costs are fair in terms of the added expense to the state,
there is little or nothing resembling a “profit” for the states.

What each state does experience from the partnership is an opportunity to play a role in
assuring that its residents receive an acceptable level of service in the administration of
the program. Service to its citizens and fair and appropriate regard for state
government in general and the state business community are the incentives for state
participation in the program.

In Nebraska, DDS management is sometimes asked by other officials in state
government --- legislators, their staffs, budget analysts, and a former governor’s chief
of staff --- “why is this a state program? why not just turn this over to SSA? is keeping
this program really worth the risk from a PR and liability point of view?”

The structure and nature of the state federal partnership has evolved over the history of
the program in ways that are relevant to some of the findings of this audit. Before the
enactment of Public Law 96-265 in 1980, the business relationships between the state
and federal components were determined by individually negotiated contracts. This
enabled each state to declare and negotiate the terms under which it would perform
functions on behalf of SSA. Under 96-265, the contracts were invalidated and SSA
was empowered to issue regulations that would define the business relationship. Such
regulations were issued on May 29, 1981. The fundamental understanding was that
SSA would provide the policies, workload, performance expectations, funding, and
oversight while the states would provide a business environment, business rules, and
personnel.

Two citations from the original regulation are relevant:

       “We (SSA) do not intend to become involved in the State’s ongoing
       management of the program except as necessary and in accordance with these
       regulations”.

       “The States will have control over management of their operations as long as
       their performance is adequate under the standards which we set”.

But as time has passed, SSA has increasingly sought to determine business rules,
administrative procedures, etc. within the DDSs. This observation is made here because
it becomes relevant to some of the specific findings of the audit. At least a theoretical
possibility exists that the trend in SSA determination and enforcement of administrative
and business rules would so compromise a state’s reason for being in the program as to
compel reexamination of the state’s position.




                                                 D-2
RESULTS OF THE REVIEW

PAYMENT TO CE PROVIDERS FOR MISSED APPOINTMENTS

OIG observed that the DDS has a practice of paying health care providers a fee when
claimants fail to appear for their scheduled appointments, that this practice had not
been approved by SSA, and that this is not consistent with SSA instructions. OIG
recommends that SSA instruct the DDS to immediately stop paying such a fee and to
refund $229,519.


DDS disagrees with OIG’s recommendation for the following reasons:

   •   paying such a fee is a good business practice;
   •   it is consistent with the parent agency practice;
   •   it is consistent with standard business practice in the community;
   •   it contributes to our highest priority of making accurate determinations;
   •   permitting the DDS to exercise its own discretion on this matter (and potentially
       on other matters) is consistent with the fundamental understanding in having a
       state-federal partnership;
   •   SSA may lack the regulatory authority to impose its requirement on this matter;
   •   attempting to effectuate a payment of nearly a quarter of a million dollars
       constitutes a threat to the continuation of the state-federal relationship in
       Nebraska.

Paying the fee is a good business practice. When DDS schedules an appointment with
a medical provider, that provider blocks out time that could otherwise have been “sold”
to another purchaser. This is particularly important in the case of psychologists who
schedule an hour or more of their time to the exclusion of all other activities. When our
claimant fails to appear for the examination, the time and business opportunity is lost.
Asking the provider to take this risk with no opportunity for compensation is unfair and
unreasonable. Our examination providers are our business partners, the success of our
operations depend upon them, and we value their good will. The OIG recommendation
is not consistent with maintaining good business relationships.

It is consistent with the parent agency practice. In comparable situations, most notably
the contracting for translation services, the parent agency pays a fee to professional
service provider when he or she is present and ready to provide the service but the
client fails to appear and a business opportunity is consequently lost. When SSA
chooses to do business with us, especially under a regulation which states an intention
to defer to local business practices, it gives up its absolute right to unilaterally dictate
business practices. If exercise of such an absolute right is essential in SSA’s view, then
we acknowledge SSA’s option to make arrangements with some other entity to
schedule and pay for consultative examinations.



                                                 D-3
It is consistent with standard business practice in the community.

Medical practitioners generally assess charges to patients who make appointments and
who do not appear for the appointments without having given adequate notice of
cancellation. Expecting practitioners to treat DDS differently than their patients is not
reasonable.

OIG’s recommendation runs counter to our highest objective. The top priority of the
DDS is to make correct and accurate determinations of eligibility for disability benefits.
Doing so requires that we attempt to recruit the best and most competent sources for
medical examinations. Not surprisingly, the best sources are those in highest demand.
Not paying a fee for missed appointments will cause us to lose the opportunity to do
business with providers who are in highest demand.

SSA may lack the regulatory authority to require that no fees be paid in these
circumstances.

In the current CFR, SSA states its basic intent as follows:
§404.1603 Basic responsibilities for us and the State.

(a) General. We will work with the State to provide and maintain an effective system for processing claims of those
who apply for and who are receiving benefits under the disability program. We will provide program standards,
leadership, and oversight. We do not intend to become involved in the State's ongoing management of the
program except as is necessary and in accordance with these regulations. The State will comply with our
regulations and other written guidelines.

With regard to payment for medical purchases, the CFR states:
§404.1624 Medical and other purchased services.

Subject to the provisions of §405.805(b)(2) of this chapter in claims adjudicated under the procedures in part 405 of
this chapter, the State will determine the rates of payment to be used for purchasing medical or other services
necessary to make determinations of disability. The rates may not exceed the highest rate paid by Federal or other
agencies in the State for the same or similar type of service. The State will maintain documentation to support the
rates of payment it uses.

Clearly, payment for missed appointments falls under the heading of purchased medical
services and clearly the CFR defers to the state practice. While OIG or SSA may quote
other much more general phraseology (such as, “the DDS will follow our guidelines),
deference must go to the more specific language.

Threatening to attempt to recover money paid for missed appointments could have
undesired consequences for the future of the state federal relationship. As mentioned in
the previous section, there is little in the way of tangible benefit for the state in this
partnership. For SSA to threaten to recover a large amount of money (or any amount of
money), would further weaken the rationale. It would create the appearance of a
situation in which the best the state could do would be to have the federal partner cover




                                                               D-4
the expenses of doing federal work but in which there would be a potential penalty in
which the state would have to provide its own funding should a mistake be made.
Many reasonable state policy makers would oppose such an arrangement.

Any decision should be made by weighing the probable benefits against the probable
risks. When applied to the question of deciding whether or not OIG will recommend
recovery of funds, there are no benefits and there are many risks. There are no benefits
because this recovery of funds simply will not happen. The Nebraska legislature is not
going to appropriate Nebraska taxpayer dollars to pay SSA for having done SSA work.
Neither will the threat intimidate the DDS into following SSA directions for which
SSA lacks regulatory authority. There are no other benefits. Meanwhile, there is
considerable risk. The recommendation is inflammatory and without any possible
constructive consequence. Therefore DDS recommends that the OIG draft report be
amended to exclude any reference to recovery of funds.

SANCTION LISTING

OIG observed that DDS had only recently been reviewing the HHS OIG List of
Excluded Individuals/Entities to make sure that we are not doing business with health
care providers who have been sanctioned by other federal agencies. OIG recommended
that DDS continue to use this listing.

DDS agrees with the OIG finding and recommendation.

INVENTORY CONTROL

DDS disagrees with a number of OIG’s observations and recommendations regarding
inventory control.

OIG Statement                                 DDS Response
DDS could not locate two out of service       DDS did recover both laptops.
laptops, but later located one.

“We do not agree with the NE DDS’             DDS made no such assertion. DDS believes
assertions that they are exempt from          that it must abide by the POMS
documenting SSA supplied computer             requirements for inventory control for all
equipment into their inventory system.”       equipment including computer equipment.
                                              POMS 39530.020 requires that DDS
These statements are made in the context      inventory all equipment whether purchased
of determining whether or not DDS must        by SSA or by the state with SSA funds.
maintain a formal inventory of computer       DDS does follow this instruction. But
equipment supplied by SSA with a unit         POMS 39530.001 D defines “equipment” as
cost of less than $5000.                      an article having an acquisition cost of
                                              $5000 or more.

Although POMS 39530.001D does                 The POMS quoted by OIG does indeed say


                                               D-5
define equipment using a minimum per           that computer equipment must be
unit acquisition cost, this same policy        considered separately. But it does not say
says that computer equipment must be           that it must be inventoried.
considered separately.

Additional policy requires (POMS               Yes, but it does not define what an
39563.200) requires an appropriate             appropriate system would be. This
inventory and control mechanism to             reference is very general and we must defer
account for all property used for              to the more specifically worded sections
disability program purposes.                   that, taken together, say that items costing at
                                               least $5000 must be inventoried.

OIG has an opinion about what should be        But the POMS does not back up that
inventoried.                                   opinion. If SSA has specific requirements it
                                               should state them clearly in POMS and then,
                                               provided that they do not conflict with a
                                               higher authority, DDS will comply.

DDSs contention that it does not own the       That is one fact in support of OIG’s
computer equipment is wrong. SSA’s             interpretation. But there are others. First,
policy says that title rests with the state.   every piece of computer equipment that
                                               SSA ships to DDS bears a sticker that says
                                               “SSA – Property of the Federal
                                               Government”. Second, if it were truly the
                                               property of the state, it could be reassigned
                                               from DDS to some other agency of state
                                               government. Does OIG think that SSA
                                               would stand still for that?

We recommend that SSA instruct the NE          To the extent that OIG is recommending
DDS to immediately establish and               that SSA require DDS to conform to SSA
maintain equipment inventory in                requirements (once they are stated so that
compliance with the policies of SSA and        everyone knows what they are), DDS
the Nebraska Department of Education.          agrees. But the OIG recommendation seems
We also recommend that SSA verify the          to go further and to recommend that SSA
NE DDS’ new inventory system                   interject itself into the supervision of state
complies with appropriate policies.            employees by taking actions to inspect state
                                               compliance with state instructions. If this is
                                               the intended meaning, then DDS strongly
                                               disagrees that SSA should get involved in
                                               state supervision of state practices.

ACCESS CONTROLS

DDS does not agree with some of OIG’s observations and recommendations regarding
access controls and concludes that OIG’s recommendations are not support by POMS




                                                D-6
OIG Statement                                DDS Response
DDS does not comply with SSA policies        OIG has mischaracterized and overstated
for cleaning services which require either   what the POMS actually says. 39566.010A
a “clean desk” policy or daytime             prefaces all succeeding guidelines by saying
cleaning. OIG cites POMS                     that the contents of the section are
39566.010B2a and B6e as its source.          discretionary. The specific sections
                                             referenced by OIG say “offices should
                                             implement a clean desk policy or daytime
                                             cleaning” and “the office should be cleaned
                                             during work hours”. DDS believes that SSA
                                             chose the term “should” when the term
                                             “must” was available and intentionally
                                             labeled the guidelines as discretionary.
                                             POMS does not support the OIG
                                             recommendation.

Non agency employees such as                 DDS feels that the use of PINs and
cleaning personnel must not have             passwords is sufficient to prevent non
access to claimant data and computer         agency personnel access to the sensitive
equipment used for data input or             information.
storage per POMS 39566.030B.

INCOMPLETE SECURITY PLAN

OIG observed that the DDS security plan was incomplete and recommended the
development of a security plan in accordance with SSA policy.

SSA’s requirements for security planning have been something of a moving target and
DDS has not been able to keep up. DDS does accept this finding and will work with
the SSA RO to update and complete our security plan.

DRP NOT TESTED

OIG observed that the DDS disaster recovery plan has not been tested and
recommended that SSA and DDS work together to test the DRP.

DDS agrees with the OIG finding and recommendation.

Thank you for the opportunity to comment on the draft. Depending on the extent to
which the language in the final report is modified in view of these comments, DDS
requests that these comments be included as an appendix to the final audit report.

Sincerely,

Douglas Willman
DDS Administrator


                                              D-7
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division, (816) 936-5591

   Ken Bennett, Information Technology Specialist, (816) 936-5593

Acknowledgments

In addition to those named above:

   Doug Kelly, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-07-17170.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
